A
CD

8

FILED
JAN 1 3 2020

i

SUPRE^CCimrS^^

NO. 19-

. 3fa tfje -

Supreme Court of tfje ®intteb States;
JOHN LEHMANN,
Petitioner,
v.
NICOLE HAIMS,
Respondent.

I

On Petition for Writ of Certiorari to the
New York Court of Appeals
PETITION FOR WRIT OF CERTIORARI

John Lehmann, Esq
Petitioner Pro Se
15 Bank Street, Apt 109D
White Plains, NY 10606
(703) 597-2825
JC_LEHMANNJR@MSN.COM

January 13,2020
SUPREME COURT PRESS

(888) 958-5705

Boston, Massachusetts

RECEIVED
JAN 1 7 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

V.

1

QUESTIONS PRESENTED
1. Did the New York courts’ decisions to deprive
a child’s only living natural parent of physical and
legal custody of his child, while granting such to a
maternal non-parent relative, violate the parent and
his child’s constitutionally protected fundamental and
natural (as opposed to state granted) rights?
2. Is the scope of fundamental and natural rights
a substantial constitutional issue?
3. Was there “clear and convincing” evidence of
extraordinary circumstances in the record sufficient
to terminate Lehmann’s parental rights at the time
of the closing of the record?

11

PARTIES TO THE PROCEEDINGS
Petitioner
John Lehmann
Respondent
Nicole Haims
Interested Party
•

Child (O.L.)

Ill

LIST OF PROCEEDINGS
Family Court of New York Westchester County
No. 143772
Nicole Haims v. John Lehmann
Date of Final Opinion: December 18, 2017

Supreme Court of the State of New York Appellate
Division: Second Judicial Department
No. 2018-00090
In The Matter ofNicole Haims v. John Lehmann
Date of Final Order: April 24, 2019

State of New York Court of Appeals
No. SSD 64
In The Matter ofNicole Haims v. John Lehmann
Date of Final Order: October 17, 2019

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED........... ..................

i

PARTIES TO THE PROCEEDINGS......... ......

.11

LIST OF PROCEEDINGS.......... ........... ...........

in

TABLE OF AUTHORITIES..............................

vm

NEW YORK COURTS’ OPINIONS BELOW....

1

JURISDICTION...................................... ..........

4

CONSTITUTIONAL PROVISIONS..................

4

STATEMENT OF FACTS .............. ...................

5

REASONS FOR GRANTING THE PETITION...... 25
CONCLUSION

34

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Order of the Court of Appeals of the
State of New York (October 17, 2019)............... la
Decision and Order of the New York Appellate
Division, Second Judicial Department
(April 24, 2019)...................... ..................... ......... 2a
Decision and Order on Motion,
New York Appellate Division,
Second Judicial Department
(February 2, 2018)................................................. 8a
Decision and Order (After Fact-Finding Hearing)
of the of the Family Court of New York,
Westchester County (December 18, 2017)....... 10a
Temporary Order of Protection of Family Court
of the State of New York
(September 2, 2015).............................................. 80a

VI

TABLE OF AUTHORITIES
Page
CASES
Bailey v. Carr,
125 A.D.3d 853 (2nd Dept. 2015).........

18

Burghdurf v. Rogers,
233 A.D.2d 713 (3rd Dept. 1996).........

31

Campbell v. Brewster,
9 A.D.3d 620 (3rd Dept. 2004)...........

21, 31

Esposito v. Shannon,
32 A.D.3d 471 (2nd Dept. 2006).........

30

Herrera v Vallejo,
107 AD3d 714 (2nd Dept. 2013).........

29

In re Adoption ofMale Infant L,
61 N.Y.2d 420 (1984)............................

30

LaCroix v. Deyo,
113 Misc.2d 89 (Family Ct. 1981),
affd88 A.D.2d 1077 (3rd Dept. 1982)

31

Milli v. Morreale,
83 A.D.2d 173 (4th Dept. 1981).........

30, 31

Nellie R. v. Betty S.,
187 A.D.2d 597 (2nd Dept. 1992)..........

30

Nevarez v. Pina,
154 A.D.3d 854 (2nd Dept. 2017).........

16

Noonan v. Noonan,
109 A.D.3d 827 (2nd Dept. 2013).......

16

People v Donaldson,
36 A.D.2d 37 (4th Dept. 1971)...........

14

Vll

TABLE OF AUTHORITIES—Continued
Page
People v. Oehler,
821 N.Y.S.2d 380 (County Ct. 2006),
affd, 52 A.D.3d 955 (3rd Dept. 2008)....

13

Rodriguez v Delacruz-Swan,
100 AD3d 1286 (3rd Dept. 2012).... .

29

Santosky v. Kramer,
455 U.S. 745 (1982).......... ................ ...

26, 27, 28

Sellers v. Brown,
155 A.D.3d 1047 (2nd Dept. 2017)....

30

Smith v. Organization ofFoster Families,
431 U.S., 816 (1977).... ............... .......

27

Stanley v. Illinois,
405 U.S. 645 (1972)...... ......................

26

Troxel v. Granville,
530 U.S. 57 (2000)............ ............. ....

26, 27

Wisconsin v. Yoder,
406 U.S. 205 (1972)...... ..................

26

Woodby v. INS,
385 U.S. 276 (1966).........................

27

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. I....

........... 4, 29

U.S. Const, amend. V...

4, 25, 26, 29

U.S. Const, amend. XIV

.... 4, 26, 29

Vlll

TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1257(a)

4

OTHER AUTHORITIES
National Institute on Alcohol Abuse and
Alcoholism, (https://www.niaaa.nih.gov/
publications/brochures-and-fact-sheets/
alcohol-facts-and-statistics)..............................

2

National Parents Organization,
http s ://www. nationalparentsorganization.
org/images/2019_NPO_Shared_Parenting_
Report_Card_vll_10172019.pdf...................

25

1

m
NEW YORK COURTS’ OPINIONS BELOW
On August 24, 2015, the Family Court of New
York for Westchester County (“FC”) granted on an ex
parte basis petitioner Nicole Haims’ (“Haims”) order to
show cause to give her guardianship of John Lehmann’s
(“Lehmann”) natural daughter (“daughter” or “the
child”) three months after the death of the child’s
natural mother and Lehmann’s wife. File 143772;
Docket G-11126-15 (App.80a). Thereafter, Lehmann
has only been permitted paid for supervised access to
his daughter.
On December 18, 2017, FC Judge Hahnl issued
her Decision and Order (“D&O”), without a single
citation to the record, granting the child’s maternal
aunt Haims physical custody of the child, while also
granting Lehmann unsupervised visitation for 48
hours over every weekend on a gradually increasing
schedule over seven months, plus most holidays.
(App.lOa) (Additionally, Haims and Lehmann were
ordered to share legal custody of the child, with
Haims having final say (thus Lehmann’s views could
be and were subsequently simply ignored by Haims).
The D&O’s finding of the existence of extraordinary
1 Haims’ law firm donated a proportionately significant amount of
money for FC Judge Hahn to run for office in an uncontested
election in 2014. One must ask why a person would require funds
for her FC judgeship campaign if she was the only candidate
seeking election. FC Judge Hahn entered office approximately eight
months prior to the ex parte petition being filed. This was never
disclosed to Lehmann—he learned it from a New York website
while writing this writ.

2

circumstances was based on: l) Lehmann having pur­
portedly “not sufficiently addressed his alcoholism”—
despite being abstinent for nearly two years (verified
by objective tests);2 2) according to the unrebutted
testimony/report of Dr. Behrman (Lehmann’s daugh­
ter’s therapist hired and paid for by Haims) and Dr.
Abrams (FC appointed psychiatrist), they predicted
that changing the child’s primary caretaker from
Haims to Lehmann would cause psychological trauma
due to loss issues (apparently this did not apply to
the absence of her father or paternal family); and 3)
Lehmann had “never been the primary caretaker” of
his daughter. Haims v. Lehmann, File 143772, Docket
V-l 1126-15. (App.60a). Per Haims’ order to show cause
seeking a temporary stay filed with the New York
Appellate Division, Second Department (“AD2D”), the
D&O was temporarily stayed and Lehmann contin­
ued to only be permitted supervised access to his
daughter, which amounted to one hour per week.
Haims v. Lehmann, File 2018-00090, Docket V-l 112615. (App.8a).
On April 24, 2019, the AD2D granted Haims sole
physical and legal custody of the child and only
allowing Lehmann to have supervised visitation with
his daughter, asserting that there was a lack of a
2 According to the National Institute on Alcohol Abuse and Alcohol­
ism, in the U.S. 14.1 million adults have an alcohol abuse disorder,
only 6.5 percent of these people received treatment in the last year,
and 10 percent of children live with a parent with alcohol problems
(https://www.niaaa.nih.gov/pubhcations/brochures-and-fact-sheets/
alcohol-facts-and-statistics). Should this Court be prepared to
remove 10 percent of children in this country from their natural
parents via state agencies or the courts, as the New York courts
have effectively ruled in this matter?

3

sound and substantial basis in the record for the FC
D&O, with no citations to the record, despite Haims
apparently being too bothered to even attend the oral
argument. (App.2a) The AD2D simply stated its
rationale to be that there “was evidence before the
court that, among other things, the father had abused
alcohol for nearly 20 years, had a history of relapses
during prior attempts to attain sobriety, and was
only at the beginning stages of treatment to achieve
sobriety during this most recent period of abstinence.”
The AD2D made its finding of Lehmann to be an
unfit parent and extraordinary circumstances to be
present, despite his having negative test results for
every single one of the over 100 tests for any alcohol
use (over 52 which were completely random) that he
was subjected to during the record period. Indeed,
this critical fact was never even mentioned in the
AD2D’s opinion, nor did it enumerate what “among
other things” it was referring to. Haims v. Lehmann,
171 AD 3d 1176. (App.5a).
On October 17, 2019, the New York Court of
Appeals ordered that Lehmann’s appeal of the AD2D’s
opinion be dismissed sua sponte upon the ground
that no substantial constitutional question was directly
involved, despite the right of a natural parent to have
custody and to raise their child to be the most funda­
mental right. Haims v. Lehmann, SSD 64. (App.la).

I

4

JURISDICTION
This Court has jurisdiction to review this matter
in that all appeals to the New York courts have been
exhausted. The opinion of the New York Court of
Appeals was entered on October 17, 2019. (App.la).
Moreover, it deals directly with the interpretation of
the fundamental natural rights of parents and their
children under the First, Fifth, and Fourteenth Amend­
ments to the constitution. This Court has jurisdiction
under 28 U.S.C. § 1257(a).

CONSTITUTIONAL PROVISIONS
U.S. Const., amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const., amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in
the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in

5

jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be
taken for public use, without just compensation.
U.S. Const, amend. XIV
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States;
nor shall any State deprive any person of life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.

STATEMENT OF FACTS
In September 2009, Lehmann and his now
deceased wife were married. (Aug. 15, 2017, pp. 44-46,
pp. 51-53). Approximately two years after the marriage
in November 2011, their child was born. From the
beginning of 2012 until May 2015, Lehmann had
almost no substantive contact with the maternal family,
including her sister Haims. Around March 2013,
Lehmann and his wife physically (never legally) sepa­
rated. The child continued to reside with Lehmann’s
wife in the marital home in Manhattan, with Lehmann
living only blocks away. Except for a few short
periods of disruption, Lehmann visited the child three

6

to five days each week for several hours after work
and on weekends. (Aug. 15, 2017, p. 55, p. 57, pp. 63-64,
pp. 66-67; Aug. 16, 2017, p. 18).
On May 24, 2015, Lehmann’s wife suffered a brain
aneurysm, was hospitalized, and eventually passed
away on June 9, 2015. It was during this period of
time that Lehmann began interacting with the marital
side of the family again after 3% years. Lehmann
temporarily allowed his daughter to reside with
Haims’ family in Pound Ridge, New York from May 24,
2015 until he could obtain a suitably large enough,
yet affordable, apartment in White Plains, New York
for his daughter to come live with him. Lehmann
visited the child every weekend for approximately
eight hours at Haims’ home, and he was in nearly
daily communication with Haims and/or her husband
throughout the summer of 2015. (May 9, 2017, p. 8586). In August 2015, Lehmann moved to White Plains
and also enrolled the child in a preschool there. (Aug.
15, 2017, p. 83-84). On August 21, 2015, Lehmann sent
Haims a text message stating: “I paid for my lease in
Wp today so I can either pick [the child] up or u drop
her off and see the new place on the 5th or 6th. Ur
Choice. I hope you know how much I appreciate how
much u have done to help us out this last few months
when I didn’t have room for her.” (RX-E). Three days
later, Haims unexpectedly filed her guardianship
petition for Lehmann’s daughter, ridiculously charac­
terizing this text message as “threatening.” There­
after, the time that the child has resided with Haims
has been due to the very slow pace of the litigation.
(Aug. 15, 2017, p. 64, p. 73, p. 80, p. 83, p. 85).

7

Lehmann was an involved and engaged co-parent
while his wife was alive. Lehmann testified that he
insured that his daughter’s daily financial, medical,
educational, physical, psychological, and emotional
wants and needs were always met, as well as having
also always planned for her future. (Aug. 15, 2017, pp.
55-57, p. 63, pp. 65-66, pp. 68-71). Despite not being the
child’s primary caregiver, her natural mother was,
Lehmann was still deeply involved in her care and
participated equally in every important decision in
her life (e.g; where she would attend preschool, how
she would be raised religiously in a two religion family,
which pediatrician she should go to, etc). (Aug. 15, 2017,
p. 63-66).
Haims produced no witnesses or documents contra­
dicting Lehmann’s testimony about his caretaking
and parenting of the child, or a single witness who had
any significant first-hand information about Lehmann
during the 3 XA years between the child’s birth and
Lehmann’s wife’s hospitalization. As such, Haims had
absolutely no personal knowledge of what Lehmann
did, the role he played in the child’s life, or what time
he spent alone with her. (May 9, 2017, pp. 68-69, pp. 8384, p. 103, p. 117, p. 135). Despite this total lack of evi­
dence from Haims, the FC gave no credence to what
it described as Lehmann’s “self-serving” testimony
about his pre-May 2015 parenting of the child, and
wrongly shifted the burden of proof onto him to show
that he did in fact care for and parent his daughter
during this period of time. (D&O at 27).
There is absolutely no evidence in the record that
Lehmann has ever neglected the child, due to alcohol
consumption or otherwise, besides Haims and her

8

witness’ completely non-credible testimony about
observing Lehmann in the summer of 2015. Haims
did not produce a single disinterested third-party wit­
ness who testified as to having ever personally observed
Lehmann intoxicated with his daughter.
The FC erroneously found that Lehmann’s medi­
cal records indicating the quantity of alcohol that he
purportedly admitted to having drunk on a daily basis
to the hospital intake personnel, refuted Lehmann’s
testimony that after the separation from his wife,
now almost 514 years ago, he never cared for child
O.L. while under the influence of alcohol. (D&O at 2728). For example, the FC inexplicably found that
according to the NY Presbyterian records, Lehmann
had admitted that he had drunk “at least a liter of
vodka daily for at least the past 3-4 years” (D&O at
ll)—this FC finding was a totally incorrect reading
of the exhibit, and indeed, Haims’ FC summation
brief (page 12) from which the FC cribbed this language
even properly indicated “pint” not “liter” per day.
The FC also totally misstated Lehmann’s testi­
mony by finding that in 2013, he “drank most nights
after work until sometime in January 2016.” Lehmann
clearly and accurately testified that following his
treatment at Glenbeigh in January 2015, he greatly
reduced his alcohol intake to approximately only once
per week, and not consuming quantities sufficient to
become inebriated. (Aug. 15, 2017, p. 196). By at least
the first week in February 2016, Lehmann was com­
pletely abstaining from any alcohol consumption. (Aug.
16, 2017, p. 36). There was no evidence presented by
Haims to contradict this testimony.

9

As FC-appointed CASAG evaluator Dr. Griffin
(PhD) reported, Lehmann preferred to drink alone at
night after work on nights when he did not see the
child, or only after seeing her on the nights that he
did. (CX-2). There is no credible admissible evidence
in the record that Lehmann ever drank alcohol before
or when taking care of the child by himself. The FC’s
inappropriate finding that Lehmann must have been
intoxicated at some point while entrusted with his
daughter’s care was totally fabricated and unsup­
ported by the record.
Lehmann testified that although occasionally
drinking, including with Haims’ family, he was never
intoxicated in the summer of 2015. (Aug. 16, 2017, p.
21). Unlike Haims, Lehmann had no family or friends
at that time in New York to bolster his testimony.
However, what Lehmann has to support his testimony
is much more reliable and not subject to bias—the
negative result of a hair follicle test proving that he
did not abuse (as opposed to use at all) alcohol
between June 17, 2015 and September 16, 2015 by a
lab designated by Haims. (RX-G).
The FC inexplicably found that Lehmann proffered
the negative hair test result to refute visitation super­
visor Carmen Candelario’s (“Candelario”) claim that
she smelled alcohol on Lehmann when she first met
with him in October 2015. (D&O at 31). He did not,
as the hair test did not even cover October 2015;
rather, Lehmann offered the negative hair test result
to objectively refute Haims’ witnesses’ testimony
about their purported observations of Lehmann being
intoxicated on un-specified days in the summer of
2015. Thus, the FC clearly did not consider this critical

10

piece of objective scientific evidence correctly when
weighing the credibility Haims’ witnesses.
Marguerite DeFonte (“DeFonte”), a 30-year Haims
family friend and former employee of her father, tes­
tified about her purported observations of Lehmann
at the Villa Roma resort on Saturday July 18, 2015.
(Dec. 19, 2016, pp. 70-71; Aug. 29, 2016, p. 73). DeFonte
testified that she saw Lehmann at the pool bar
inebriated and trying to get a drink while ignoring
the child who was in the pool attempting to get his
attention. (Dec. 19, 2016, pp. 58-59, pp. 71-72). This
testimony was completely refuted by Haims’ father’s
affidavit (RX-B para. 7) and Lehmann’s testimony,
which both indicated that nobody else from the
family (including the child) accompanied them to the
Villa Roma during weekend of July 18, 2015. (Aug.
15, 2017, p. 95). Moreover, Haims clearly knew that
the child was not at the Villa Roma that day, as they
were together at her home in Pound Ridge and
Lehmann and Haims’ father drove to see the child on
Sunday. Instead of alerting the FC to the perjury and
correcting the record, Haims in fact flagrantly exacer­
bated the issue by citing to it in her summation brief
to the FC (page 4) and even in her brief to the AD2D
(page 21).
The FC incorrectly found Haims witnesses’ testi­
mony to be credible about their purported observa­
tions of Lehmann being intoxicated on several nonspecified days during the summer of 2015. (D&O at 29).
Unlike Lehmann who has the negative hair follicle
test result to support his testimony, there is abso­
lutely no objective evidence corroborating Haims’
friends and family witness’ testimony, although they

11

had ample opportunity to obtain such. None of Haims’
witnesses ever testified that they: (l) observed Leh­
mann drinking during the eight hours that he was at
Haims’ home each weekend to visit the child; (2)
discussed their concerns with him or asked him to
leave; or (3) took any pictures or videos of Lehmann
supporting their claims.
Haims’ father’s testimony was also not credible,
as he contradicted his own affidavit in support of
the guardianship petition on a very critical factual
point. In the affidavit (RX-B) he stated that he was
very concerned about Lehmann’s “alcohol abuse” and
intended to discuss this concern with him over the
weekend of July 18, 2015 when just he and Lehmann
went to the Villa Roma. However, at trial Haims’
father admitted that he did not actually initiate any
such conversation that weekend, but rather served
Lehmann wine at his home and drank with him at
dinner. (Dec. 19, 2016, p. 43). Such conduct is hardly
indicative of a person concerned about someone’s
“alcohol abuse,” and totally contradicts the affidavit.
The FC inexplicably found that Lehmann did not
refute any of Haims’ father’s completely false claims
about his purported improper conduct on this trip
(D&O at 29), even though the objective hair test did
and Lehmann testified that throughout the entire
summer of 2015, he was never intoxicated. (Aug. 16,
2017, p. 21).
Lehmann began being treated by and working with
his psychiatrist Dr. Centurion (MD) and his nowdeceased therapist Andrew Park (“Park”), who was a
manager for the NFL’s substance abuse program, in
2013 to assist him in addressing and effectively treating

12
his then active alcoholism. (May 16, 2017, pp. 56-57,
p. 61). Dr. Centurion’s recovery program for Lehmann,
which she designed in February 2016, included engag­
ing in weekly one-on-one therapy with Park (May 16,
2017, pp. 58, 60, 67); attending two recovery meetings
per week (May 16, 2017, pp. 67-69); and continuing
to meet with her every three months to monitor his
recovery progress and to ensure the medications she
prescribed for him continued to be effective. (May 16,
2017, p. 61). Lehmann faithfully followed this program.
(May 17, 2017, pp. 106-111, pp. 114-115).
After Park’s death in September 2016 (thus he
could not be a witness for Lehmann), pursuant to Dr.
Centurion’s recommendation, Lehmann continued to
attend the recovery meetings and to meet with her.
(May, 16, 2017, pp. 64, 71). Dr. Centurion testified that
she did not recommend that Lehmann find a new
therapist for weekly therapy after Park died, because
she believed his eight months of recovery had gone
very well and that he continued to be motivated to
remain sober. Dr. Centurion stated that in her pro­
fessional opinion Lehmann had abstained from any
alcohol use and had been living a sober lifestyle.
(May 16, 2017, p. 71).
Lehmann first met and began dating Philine in
January 2016. She was a fourteen-year veteran social
studies teacher at a private all-girls school in the
Bronx. Philine and Lehmann were engaged in the
spring of 2017 and married on July 1, 2017—making
Lehmann’s daughter her step-child. She has never
been an alcohol drinker. (Aug. 9, 2017, p. 13, 15, 20-21,
23). Philine testified that she had never seen Lehmann
consume alcohol; they did not keep any alcohol in

13

their apartment; and Lehmann had faithfully followed
Dr. Centurion’s recovery program. (Aug. 9, 2017, pp.
22-27; Aug. 15, pp. 23-25). Moreover, Philine testified
that she has no concerns about Lehmann relapsing
and that he is the kindest man she has ever known—
for example finding lots of activities and preparing
mini holiday celebrations for his daughter at their
very limited paid for visitations—he is humble and
always looking out for other people above himself, he
does not have an ego, he has a “Midwest kind of
mentality,” he is not narcissistic, he keeps his emotions
guarded and does not wear them on his sleeve but he
certainly has emotions, and that she has “never felt
safer with anyone else both emotionally or physically
in [her] life.” (Aug. 9, 2017, pp. 21-22, pp. 28-29, p. 37,
pp. 91-92).
For over a year, as part of the FC ordered CASAC
analysis of Lehmann, Dr. Griffin, on a random basis,
instructed Lehmann to provide urine samples at
least once per week to be tested for any alcohol and
drug use.3 Dr. Griffin occasionally instructed Lehmann
to provide a urine sample more than once in a given
week—meaning that there was never a time period
when Lehmann was not subject to possible testing.
(Aug. 15, p. 26-27; CX-2; RX-H). Dr. Griffin testified
that the urine tests had a look-back period of five days.
The testing took place from July 2016 through July
2017. All of these tests returned negative results. (Sept.
26, 2017, pp. 63-64, p. 68, p. 74).
3 Urine tests have been fully accepted as reliable in New York. See
People v. Oehler, 821 N.Y.S.2d 380, 381 (County Ct. 2006), affd,
52 A.D.3d 955 (3rd Dept. 2008). Lehmann has never used an illegal
drug.

14
In September 2017, Dr. Griffin testified that in
his professional opinion Lehmann had been verifiably
abstinent throughout the year-long urine testing period.
(Sept. 26, 2017, pp. 72-73). At the same time, Dr.
Griffin also testified that due to a lack of substantive
communication with Lehmann for over a year, he
could not say if Lehmann was at that point “sober” as
he defined the term—as person embracing recovery
as opposed to just abstaining from all use. (Sept. 26,
2017, pp. 73-74).
Lehmann also passed breathalyzer tests with a
two-day look-back period on over 60 occasions, admin­
istered by FC appointed visitation supervisor Candelario between 2015 and 2017.4 Candelario testified that
she has extensive experience in administering such
tests, and that they have historically always been
reliable. According to Candelario, every one of the
breathalyzer tests that she administered on Lehmann
returned a negative result for the presence of alcohol.
(May 17, 2017, pp. 13-21). Despite these constant
negative test results, Candelario testified that on two
occasions prior to visitations (in July 2016 and Novem­
ber 2016), she believed that she smelled alcohol on
Lehmann. However, on both of these occasions, like
every other time she administered a breathalyzer test
on Lehmann, the machine returned a negative result
for alcohol, even when retested, including when a dif­
ferent machine was used for the retest. (May 17,
2017, p 37, p. 63). Candelario testified that she had
never before, in her 38 year NYPD and social worker
career, encountered a similar situation where she
4 Breathalyzer tests have been fully accepted as reliable in New
York. People vDonaldson, 36 A.D.2d 37, (4th Dept. 1971).

15
believed that she smelled alcohol, yet the breathalyzer
testing always returned a negative result. (May 17,
2017, p. 37, p. 63). Clearly, Candelario smelled exactly
what she wanted to smell in order to help convince
the FC that Lehmann’s daughter should remain with
Haims. Despite this, the FC once again erroneously
failed to give the objective scientific data the significant
weight that it deserved, and instead inexplicably
found Candelario to be a credible witness, and relied
heavily on her testimony. (D&O at 3l).
Dr. Griffin in making his findings and conclusions
in his report improperly relied heavily on inadmissi­
ble hearsay provided to him orally by Haims, as well
as the contents of the petition exhibits that were
never authenticated or admitted into evidence during
the trial. Dr. Griffin’s December 2016 report stated that
Haims, who had no substantive personal contact
with Lehmann between January 2012 and May 2015,
“[w]ent into great detail about the history between
her sister and D Lehmann and how for years [her
sister] was pleading with 0 Lehmann to get help and
be sober.” There is absolutely nothing in the record
substantiating these facts—and Haims had no personal
knowledge of such. According to the report, Haims
also “provided documents” to Dr. Griffin, such as
“various motions and legal documents submitted to
the [FC].” All of these documents contained hearsay,
including hundreds of pages of purported text messages
between Lehmann and his deceased wife, “which
[according to Dr. Griffin] detail [ed] the complete his­
tory of D Lehmann’s addiction and the impact it had
on [his deceased wife] and the entire family.”

16
In connection with his evaluation of Lehmann,
Dr. Griffin requested that Philine and Lehmann’s co­
worker complete questionnaires about their obser­
vations and views of Lehmann. (May 10, 2017 pp. 2425; Aug. 9, 2017, p.40-43). Dr. Griffin’s report included
an index of the collateral information that he consi­
dered in conducting his evaluation of Lehmann, pur­
portedly including information that was disclosed by
“contacts provided by both parties in this matter. The
information supplied was reviewed and given full
consideration in the formulation of the conclusion of
this report.” (CX-2). This statement by Dr. Griffin was
false. According to his “List of Sources of Informa­
tion,” Dr. Griffin did not consider the extensive ques­
tionnaires that he requested Philine and Lehmann’s
co-worker complete about their observations and
knowledge of Lehmann, nor were their answers ever
mentioned in the substance of the report, unlike those
of Haims’ witnesses who completed questionnaires.
(CX-2).
The FC appointed Dr. Abrams (PhD) as its expert
to conduct forensic psychological evaluations of Haims
and Lehmann, but not Lehmann’s daughter. (CX-l).
These evaluations took place in July 2016—one and a
half years before the D&O was entered—when Leh­
mann was in a very different place in his life with
regard to his recovery (then only six months sober)
and marital status/home-life situation (having only
been dating Philine for seven months).5 Like Dr.
5 See Nevarez v. Pina, 154 A.D.3d 854, 856 (2nd Dept. 2017) (find­
ing an expert report to be outdated); Noonan v. Noonan, 109
A.D.3d 827, 829 (2nd Dept. 2013) (finding that “the Family
Court placed undue emphasis on the forensic evaluation, which

17
Griffin’s report, Dr. Abram’s report was also improperly
influenced by hearsay statements from Haims and
documents never authenticated or put into evidence
that Haims provided to him. There were numerous
findings in the report completely based on what
Haims claimed that her deceased sister purportedly
had told her about Lehmann.
Critically, the FC wrongly relied on Dr. Abram’s
unsupported conclusion that changing the child’s
primary caretaker from Haims to Lehmann “would
cause profound trauma to [the child], who has already
experienced enormous loss” in deciding that extraor­
dinary circumstances existed. (D&O at 33). Apparently,
according to Dr. Abrams, the child losing regular and
consistent contact with her father, who had actively
co-parented her for 314 years prior to Haims’ petition,
was not yet another loss for the child. The FC also
incorrectly relied on Dr. Abrams’ generalized and
unsupported view that “it cannot be emphasized
enough, how important it is for a child to have a stable,
loving home environment during the early years of
life,” when her father and step-mother could clearly
provide such—and her father did so before she was
stolen by Haims. (D&O at 23).
Contrary to the FC’s incorrect finding that Dr.
Abrams conducted a one-on-one interview and evalu­
ation of Lehmann’s daughter (i.e. “In his interview with
the Child ...”), which may have given him insight into
Lehmann’s daughter as an actual person, not just as
a generalized young child who had lost a parent, this
did not happen. (D&O at 23). The FC never ordered
was completed almost two years prior to the court’s determina­
tion.”).

18
Dr. Abrams to conduct a psychological evaluation of
the child, who was and is still not aware of the litiga­
tion, and in fact he did not perform such an interview
and evaluation of her. The FC completely fabricated
this fact. The only substantive contact that Dr.
Abrams ever had with the child was while he observed
her interacting with Haims and Lehmann separately
for 45 minutes each in a small conference room.
Despite this lack of personal one-on-one communication
with and analysis of the child, Dr. Abrams improperly
made several unfounded findings and conclusions in
his report about Lehmann’s daughter’s specific psycho­
logical and emotional needs. He also included an
entire page in his report, not about Lehmann, but
another person in name with different issues being
analyzed—this is very indicative of the lack of care he
took on this matter. The FC thereafter erroneously
adopted these in rendering the D&O. (D&O at 22-23).
Dr. Abrams reported that his mandate was “to
conduct an evaluation to respectfully assist [the FC]
in deciding what was in the best interests of [the
child].” In reaching his conclusions, Dr. Abrams
improperly compared Haims and Lehmann’s purport­
ed parenting history and capabilities against each
other to determine who would make the “better” or
“best” parent for the child going forward—a consider­
ation that is totally irrelevant in a custody case
between a parent and nonparent until extraordinary
circumstances have first been proven to exist.® Under
New York law, Lehmann cannot be prejudiced in this
® See Bailey v. Carr, 125 A.D.3d 853 (2nd Dept. 2015) (“A parent
cannot be displaced merely because another person would do a
better job of raising the child.”).

19

action, or displaced as his daughter’s custodial parent,
simply because Haims wants custody of her, has raised
two sons, does not work, and has two regular “babysitters’Vdomestic servants to help her care for the child
and the rest of the household. Lehmann’s daughter is
his only child and he works to support his family.
(Dec. 21, 2016, p. 24; August 9, 2017, pp. 104-108).
In his report, Dr. Abrams never indicated that
he observed or perceived anything evidencing that
Lehmann’s daughter did not love, did not want to be
with each other, or that she was in any way fearful of
her father. In fact, he found quite the opposite. Dr.
Abrams made numerous highly positive observations
about Lehmann, as well as his relationship and inter­
actions with his daughter. These Observations included
that Lehmann scored in the high average range of
intellectual functioning in the global cognitive capacity
range; did not exhibit any signs or symptoms of any
gross neuropsychological deficits (including narcissism);
and did not exhibit any signs or symptoms of any
underlying psychotic process. Dr. Abrams also noted
that Lehmann has a good stable employment history;
appeared capable of meeting his family’s financial
needs; and lives in a nice residence. (CX-l). Most
importantly, Dr. Abrams observed the love that both
Lehmann and his daughter have for each other and
the psychological and emotional bonds that they
share despite the significant constraints on their time
and interactions together. In fact, Dr. Abrams reported
that he observed that: (l) Lehmann “appeared to have
an adequate understanding of 0 [his daughter’s]
developmental, physical, social, educational and emo­
tional needs;” (2) Lehmann “appeared to know how
and when to set appropriate limits with [the child];”

20

(3) Lehmann and his daughter’s psychological and
emotional bonds with each other were strong; (4) the
child was visibly happy to see her father and she gave
him a hand-drawn card for his birthday—the day he
observed them together; (5) Lehmann and the child
both communicated that they loved each other; (6)
Lehmann interacted and connected with his daughter
in a more emotional and warm manner than he did
with adults; (7) the child demonstrated that she clearly
needs her father to play a steady and constant role in
her life; and (8) Lehmann’s daughter even commented
while being observed interacting with Haims that
she wished her father was there. (CX-l). None of
these findings are consistent with a conclusion that
Lehmann is neither a capable or fit parent for his
daughter, and they were not included in the FC D&O
or the AD2D’s opinion.
Candelario testified that she did not believe
Lehmann had adequately addressed his alcoholism,
based on what he had communicated to her. (May 17,
2017, p. 44). What was lost in this testimony and on
the FC was that Candelario was not a therapist or
psychologist who Lehmann was required to provide
information to concerning his recovery—she was
appointed to insure the child’s safety during visitation,
nothing more. As such, Lehmann did not provide her
with much information about his recovery program,
efforts, and progress. Thus, Candelario did not have
sufficient information to give a reasoned opinion about
Lehmann’s recovery efforts worthy of being given any
weight.
The FC incorrectly relied heavily on the child’s
Haims selected and paid for therapist Dr. Behrman’s

21

testimony, and admonished Lehmann for not commu­
nicating more often with her to learn about the child’s
psychological and emotional issues. (D&O at 31).
Lehmann did try to communicate with Dr. Behrman;
however, such communications were not productive.
(Aug. 15, 2017, p. 30-31, 37). In her December 2016
testimony, Dr. Behrman described the child as vibrant,
engaging, chatty, playful, and active and that she was
doing well and “thriving while in emotional recover/’
from the loss of her mother and her maternal
grandmother in 2015. (Dec. 20, 2016, p. 12). Apparent­
ly, according to Dr. Behrman, Lehmann’s daughter
basically losing almost all connection to her only
living parent was perfectly acceptable and not injurious
to her at all.
Dr. Behrman has taken every position possible
to restrict the child from interacting with and learning
about her father and her paternal family, and has
never observed them interact together.7 For example,
per Dr. Behrman’s advice, the child has never even
been informed that Lehmann obtained an apartment
with a bedroom set up for her so she could come live
with him after her mother died. Dr. Behrman believed
that revealing such might cause the child anxiety,
due to the stability she feels while living with Haims
being called into question. (Dec. 20, 2016, p. 14). Dr.
Behrman’s approach has been totally inconsistent
with fostering the child’s relationship with Lehmann.

7 See Campbell v. Brewster, 9 A.D.3d 620, 622 (3rd Dept. 2004)
(finding the “Family Court properly gave the testimony [of a
social worker] little weight inasmuch as the social worker failed
even to observe petitioner and the child together.”).

22

According to the record, Lehmann met with Dr.
Behrman six times. (May 16, 2017, p. 124). At the
first meeting in April 2016, despite having never sub­
stantively communicated with Lehmann or observed
he and his daughter together (Dec. 20, 2016, p. 40),
Dr. Behrman expressed her view (and reiterated it in
her testimony) that if Lehmann had any “empathy”
for his daughter (i.e. seeing the world through her
eyes), he would do what was in her best interests by
withdrawing his opposition to Haims’ petition for
custody and allow his daughter to remain with Haims
permanently. (Aug. 16, 2017, p. 15-16). This view
was insane—Lehmann was entitled constitutionally
to custody of his natural daughter. In essence, Dr.
Behrman suggested a no-win “Catch 22” situation for
Lehmann. In her view, in order for Lehmann to qual­
ify as a sufficiently fit parent for his daughter he
must be able to empathize with her, but in order for
Lehmann to demonstrate his empathy for her, he
must give up pursuing custody of her. This “heads I
win, tails you lose” conclusion underscores Dr. Behrman’s utter lack of credibility. Dr. Behrman’s “Catch
22” opinion was repeated at every one of the other
five meetings Lehmann had with her, during which
he was provided with very little information about
the child. (May 16, 2017, pp. 125-126; Aug. 15, 2017,
pp. 30-31, p. 37). Lehmann was interested in having
a dialogue about his daughter and her treatment, if
it would have been productive, but Dr. Behrman was
not interested in having such with Lehmann, nor did
she ever request to observe the child with Lehmann.
(Dec. 20, 2016 p. 40). Despite all of this, the FC
chastised Lehmann for the lack of communication
between Dr. Behrman and himself.

23

When Lehmann and Philine were engaged in the
spring of 2017 and again when they were married in
July 2017, Lehmann requested that she be permitted
to attend the meetings with Dr. Behrman to hopefully
gain some more insight about the child. Despite
these requests, Philine was not permitted to attend
any of Lehmann’s meetings with Dr. Behrman through
at least August 2017. (Aug. 9, 2017, pp. 31-32; Aug.
15, 2017, pp. 126-127). Dr. Behrman claimed to be
concerned that the child would become anxious about
Philine’s role with regard to her and the stability of
her life being called into question; yet, Dr. Behrman
did not take issue with Lehmann’s daughter calling
her uncle “Dad.” (Aug. 15, 2017, pp. 7-10). Dr. Behrman
even went so far as to request that Lehmann remove
his wedding ring during visitation to ensure that
Philine remained hidden. (Aug. 9, 2017, p. 129-130).
Despite Dr. Behrman purportedly working with the
child to acclimate her to “other living situations,” by
finding ways to cope with any changes that occur,
apparently Dr. Behrman chose to not work with child
O.L. to learn coping skills with regard to the paternal
side of her family. (Dec. 20, 2016, pp. 14-15). Rather,
Dr. Behrman consistently advocated continuing to limit
Lehmann and his daughter’s contact with each other
and the paternal side of her family. (Aug. 15, 2017,
pp. 7-9).
The FC put great emphasis on what it perceived
the parties’ level of willingness to foster a relation­
ship between the child and the other side of the
family to be, if awarded physical custody of her. The
FC improperly found that neither Lehmann nor
Philine “had any specific plans regarding maintaining
the child’s relationship with” the maternal side of the

24

family. (D&O at 32). Contrary to this finding, Lehmann
testified that they understood that the maternal side
of the child’s family would continue to be very
important people in the child’s life and that Lehmann
had always intended for his daughter to know both
sides of her family. (Aug. 9, 2017, p. 110, p. 125; Aug.
15, 2017, pp. 42-44). Lehmann also stated that he
would have no objection to his daughter celebrating
high Jewish holidays with the Haims while celebrating
Christian ones with his family. Given the court
orders and Dr. Behrman’s views, Lehmann’s daughter
has not spent a single holiday (including her birthdays,
Christmas, Easter, or even Father’s Day) with the
paternal side of her family.8 (Aug. 15, 2017, pp. 4244).
When Haims was asked on direct how she fosters
Lehmann and his daughter’s relationship, Haims
only offered: “I try to prepare her for her time with
her dad” and “we supervise the phone call [to make
sure she’s attentive].” (May 9, 20117, p. 60). Complying
with a FC order is not voluntarily fostering a relation­
ship. Haims also testified that she did not voluntarily
inform Lehmann (even via text) of almost anything
important related to his daughter’s life. (May 10, 2017,
pp. 14-15, pp. 61-71).

8 Indeed, even Lehmann’s parents were shunned by Haims from
contact with their granddaughter since February 2017 when
they did not respond to Lehmann’s daughter’s assertion on a
phone call that Haims and her husband were her “mommy and
daddy.” This is quite possibly the most offensive thing that
could be said to the Lehmann family—and it was clearly endorsed
and encouraged by Haims—no fault of Lehmann’s daughter.

25
The FC inexplicably found that Lehmann failed
to identify how his relationship with his daughter
would be harmed if Haims was awarded custody of
her—one would think such would be obvious given
the animosity between the parties due to this litiga­
tion, which was acknowledged by the FC and AD 2D.
(D&O at 33). According to the FC, Lehmann “did not
establish that there would be any adverse effect to
[Lehmann and his daughter’s] relationship, if [Haims]
were awarded physical custody.” Apparently, the FC
believes that there is a “no harm, no foul” rule in
New York by which the non-parent gets to keep
custody of the child, simply because the FC perceives
that the parent’s relationship with the child will not
be harmed. Such a legal principal not only violates
New York law, but also the fundamental and natural
constitutional rights of both the parent and child.

REASONS FOR GRANTING THE PETITION
This litigation has violated Lehmann’s natural
and fundamental constitutionally protected parental
rights to have custody of his natural daughter. His
daughter was stolen from him by Haims and the New
York judicial system.9 Specifically, Lehmann and his
daughter’s First (a parent’s freedom of association,
educational decisions, and religious decisions with
regard to their natural children), Fifth (due process),
9 New York was one of two states to receive a “F’ for parental rights
by the National Parents Organization https://www.nationalparents
organization.org/images/2019_NPO_Shared_Parenting_Report_
Card_vll_10172019.pdf

26

and Fourteenth (applying such rights to the states)
Amendments’ rights were violated by the state of New
York. The constitution guarantees the fundamental
right of parents to make decisions concerning the
care, custody, and control of their children. See, e.g.
Stanley v. Illinois, 405 U.S. 645, 651 (1972) (finding
that “[t]he rights to conceive and to raise one’s
children have been deemed essential, basic civil
rights of man, and rights far more precious than
property rights. It is cardinal with us that the custody,
care and nurture of the child reside first in the
parents, whose primary function and freedom include
preparation for obligations the state can neither
supply nor hinder.”) (citations omitted); Wisconsin v.
Yoder, 406 U.S. 205, 232 (1972) (“[t]he history and
culture of Western civilization reflect a strong tradition
of parental concern for the nurture and upbringing of
their children. This primary role of the parents in the
upbringing of their children is now established beyond
debate as an enduring American tradition.”). “The
absence of dispute reflected this Court's historical
recognition that freedom of personal choice in matters
of family life is a fundamental liberty interest pro­
tected by the Fourteenth Amendment.” Santosky v.
Kramer, 455 U.S. 745, 753 (1982). The Fourteenth
Amendment’s “Due Process Clause, like its Fifth
Amendment counterpart, guarantees more than fair
process. The Clause also includes a substantive
component that provides heightened protection against
government interference with certain fundamental
rights and liberty interests.” Troxel v. Granville, 530
U.S. 57, 65 (2000) (citations omitted).
“Once affirmed on appeal, a New York decision
terminating parental rights is final and irrevocable.

27

□ Few forms of state action are both so severe and so
irreversible.” Santosky, at 759. “At such a proceed­
ing, numerous factors combine to magnify the risk of
erroneous fact finding. Permanent neglect proceed­
ings employ imprecise substantive standards that leave
determinations unusually open to the subjective values
of the judge. . . . [T]he court possesses unusual discre­
tion to under weigh probative facts that might favor
the parent.” Smith v. Organization ofFoster Families,
431 U.S., 816, 835 n.36 (1977).
This Court has often ruled on the issue of paternal
rights and should take this opportunity to do so
again given the New York courts’ failures to protect
Lehmann and his daughter’s constitutional rights in
this custody matter. See Woodby v. INS, 385 U.S.
276, 282 (1966) (“judicial review is generally limited
to ascertaining whether the evidence relied upon by
the trier of fact was of sufficient quality and substan­
tiality to support the rationality of the judgment”).
As the dissent pointed out, “the standard of proof is a
crucial component of legal process, the primary function
of which is ‘to minimize the risk of erroneous deci­
sions.”) “[T]he Constitution permits a State to interfere
with the right of parents to rear their children only
to prevent harm or potential harm to a child.” Troxel
v. Granville, 530 U.S. 57, 63 (2000). There was not
sufficient proof of parental unfitness, harm, or even
potential harm to the child in this matter. Indeed,
the FC ruled that Lehmann should have unsupervised
visitation with his daughter for 48 hours every
weekend—it would not have done so if it actually
believed that any of these factors existed.

28

This Court found “that a preponderance stan­
dard [does not] fairly distribute 0 the risk of error
between parent and child . .. For the natural parents,
however, the consequence of an erroneous termination
is the unnecessary destruction of their natural family.
A standard that allocates the risk of error nearly
equally between those two outcomes does not reflect
properly their relative severity.” Santosky, at 765. [A]
“clear and convincing evidence standard of proof
strikes a fair balance between the rights of the
natural parents and the State’s legitimate concerns
. . . such a standard adequately conveys to the fact­
finder the level of subjective certainty about his factual
conclusions necessary to satisfy due process.” Id. at
769. “Given the weight of the private interests at stake,
the social cost of even occasional error is sizable. Id.
at 764.
“The fundamental liberty interest of natural
parents in the care, custody, and management of
their child does not evaporate simply because they
have not been model parents or have lost temporary
custody of their child to the State. Even when blood
relationships are strained, parents retain a vital
interest in preventing the irretrievable destruction of
their family life. If anything, persons faced with
forced dissolution of their parental rights have a
more critical need for procedural protections than do
those resisting state intervention into on going family
affairs. When the State moves to destroy weakened
familial bonds, it must provide the parents with fun­
damentally fair procedures.” Id. at 753-54.
The AD2D only cited two irrelevant cases, besides
the use of alcohol being involved in them, in rendering

29

its decision. See Herrera v Vallejo, 107 AD3d 714 (2nd
Dept. 2013); Rodriguez v Delacruz-Swan, 100 AD3d
1286 (3rd Dept. 2012). In Herrera, the court found
extraordinary circumstances existed where the parent
had prior neglect findings arising from her abuse of
alcohol; made a highly unsafe and unstable living sit­
uation from abuse of alcohol; and engaged in domestic
violence towards the child. There have never been
any neglect findings, any proven unsafe living situa­
tion, or domestic violence towards Lehmann’s daughter
in this matter. Lehmann, an attorney, lives in a very
safe and stable household with his wife and would
always protect his daughter from neglect or any type
of violence—that is a primary responsibility of a
father. In Rodriguez the court found extraordinary
circumstances where the mother engaged in a drunken
brawl with “the maternal aunt, both of whom had
been drinking heavily . . . and the child, then just shy
of nine years old, sustained various injuries when
she attempted to intervene.” Nothing like this has
ever happened here. These cases have no relevance
to the case before the Court, given how distinguishable
they are.
The New York Courts have violated Lehmann’s
Fourteenth Amendment rights as applying the First
and Fifth Amendments to the states in the following
manners:
FIRST, because Haims has exclusive decision­
making over Lehmann’s daughter, she is raising her
solely in her family’s religious faith, which differs
from that of the paternal side of the family—even
asking Lehmann to pay for her religious training in
the maternal family’s faith.

30

SECOND, Haims controls all medical and educa­
tional decisions regarding Lehmann’s daughter.
Third, Lehmann is not permitted to associate
unsupervised, with his daughter despite there having
been no substantive issues ever taking place. He now
generally sees her for one hour per week on a super­
vised ($250) basis and none of his family members,
including her step-mother, are now, as decided uni­
laterally by Haims, allowed to attend.
FOURTH, “extraordinary circumstances” have never
been defined by the New York Legislature, so it is up
to the discretion of elected FC judges, who accept
donations from law firms practicing before them,
even in uncontested campaigns—this is quite simply
a bribe.
FIFTH, two of the three reasons provided by the
FC finding Lehmann unfit (never been the child’s
“primary” care giverio and predicted psychological
10 See Nellie R. v. Betty S., 187 A.D.2d 597, 598 (2nd Dept. 1992).
New York courts have repeatedly found that extraordinary cir­
cumstances do not exist, thus requiring that the parent be given
custody of their child, even though the parent never, or only for
a very short period of time, served as the child’s primary
caretaker. E.g. In re Adoption of Male Infant L, 61 N.Y.2d 420
(1984) (mother who initially surrendered her child at birth to
the non-parent, shortly thereafter changed her mind, and was
awarded custody of her then four year old daughter); Esposito v.
Shannon, 32 A.D.3d 471 (2nd Dept. 2006) (father who moved
from New York to Florida when the child was two years old was
awarded custody of his then 12 year old daughter following the
other parent’s death); Sellers v Brown, 155 A.D.3d 1047 (2nd Dept.
2017) (father who had never lived with or been the primary
caretaker of the child was awarded custody of his then five year
old daughter following the other parent’s death); Milli v.
Morreale, 83 A.D.2d 173 (4th Dep’t. 1981) (father who separated

31

damage to a child from removing the child from the
home and care of a non-parent to that of a natural
parent) 11 are irrelevant to an extraordinary circum­
stances determination in New York.
Sixth, the FC did not make a single citation to
the trial testimony or record, and made numerous
errors in its factual findings that are unsupported by
the record.
SEVENTH, Haims filed an ex parte guardianship
petition, which included over a hundred pages of
cherry-picked pages of text messages purportedly
from the mother five months after the birth of the child, result­
ing in the father remaining in Italy while the mother and child
resided in New York, was awarded custody of his then 314 year
old daughter following the mother’s death).
11 E.g. Milli v. Morreale, 83 A.D.2d 173 (4th Dep’t. 1981) (find­
ing a lack of extraordinary circumstances despite a psychiatrist
predicting that transferring custody to the parent from the non­
parent would be “devastating to [the child’s] psychological devel­
opment,” “a psychological disaster,” and that such a shift would
cause “tremendous regression”); Burghdurf v. Rogers, 233 A.D.2d
713 (3rd Dep’t. 1996) (finding lack of extraordinary circumstances
despite a psychologist’s testimony that it would be in the child’s
best interests for custody to remain with the non-parent, and
further “that a change in custody would be psychologically
damaging to the child.”); Campbell v. Brewster, 9 A.D.3d 620, 62122 (3rd Dept. 2004) (finding the non-parent’s “claim that the
potential [negative] psychological impact of disturbing the
child’s long-standing [approximately three years] placement
with her shortly after the [child’s] mother was murdered,” when
the father filed for custody “soon” after the mother’s death, did
not constitute extraordinary circumstances). A child’s need of
“emotional and nurturance” support from the non-parent following
the death of a parent does not qualify as an extraordinary
circumstance. See LaCroix v. Deyo, 113 Misc.2d 89 (Family Ct.
1981), affd88 A.D.2d 1077 (3rd Dept. 1982).

32

between Lehmann and his now deceased wife that were
never authenticated or admitted into evidence, and
over 12 false accusations that Haims, nor any of her
witnesses, had any personal knowledge of.
EIGHTH, Haims provided these purported nonauthenticated or admitted text messages to the FC,
the FC’s experts, and the attorney for the child—who
has never had a substantive conversion with Lehmann,
while having had many with Haims’ counsel, including
before every hearing.
NINTH, Dr. Griffin ignored the questionnaires of
Lehmann’s witnesses, while giving credence to Haims’
witnesses’ questionnaires and oral interviews with
Haims, who in fact had no first-hand knowledge
about what she divulged.
Tenth, Haims failed to alert the FC about
DeFonte’s known perjury, and even cited to it in her
briefs. Lehmann’s daughter was with Haims at her
home the weekend of July 18, 2015, not at the Villa
Roma resort with Lehmann, as DeFonte claimed in
her testimony.
ELEVENTH, there is nothing in the record proving
any potential or actual harm by Lehmann towards
his daughter.
Twelfth, the FC took issue with Dr. Centurion
only producing documents from the child’s birth up
till August 24, 2015 (the petition date) when that
was exactly what the FC ordered to be turned over.
Thirteenth, the AD2D reviewed the AFC’s
requested Dr. Strober report, post the FC D&O in
December 2017, which completely contained un-cross
examined hearsay from Haims and Dr. Strober regard-

33

ing what Lehmann told his daughter about his marriage
to Philine six months earlier and her unobserved by
anyone but Haims purported reaction to such post
visitation.
FOURTEENTH, Dr. Behrman made her conclusion
that Lehmann’s daughter should remain with Haims
even prior to meeting with Lehmann or ever observing
Lehmann and the child together.
FIFTEENTH, the AD2D did not mention the hair
and over 100 other totally negative objective tests
Lehmann was subjected to. The FC misunderstood
the hair test’s importance in refuting Haims’ witnesses’
claims regarding the summer of 2015.
Sixteenth, the FC allowed Dr. Griffin to create
a legal distinction between objective abstinence as
opposed to subjective sobriety.
SEVENTEENTH, The FC invented a “no harm, no
foul” child custody law.

34

CONCLUSION
Please grant this Writ of Certiorari, and ultimately
return Lehmann’s daughter to his custody. Both of
their constitutional rights have been violated by the
New York courts. It is time to concretely establish a
parent’s and their natural children’s rights under the
constitution. People change.
Respectfully submitted,
John Lehmann, Esq.
Petitioner Pro Se
15 Bank Street, Apt 109D
White Plains, NY 10606
(703) 597-2825
JC_LEHMANNJR@MSN.COM

January 13,2020

